                                 INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON, VIRGINIA 22202--4704 




MEMORANDUM FOR THE ASSISTANT SECRETARY OF THE ARMY
               (CIVIL WORKS)

SUBJECT: Investigation under 5 U.S.C. § 2302(b)(8)


       We recently completed an investigation into allegations that Arlington
National Cemetery (ANC) officials terminated Ms. Jennifer "Gina" Gray from her
public affairs position in June 2008 in reprisal for making protected disclosures.

       We did not substantiate Ms. Gray's allegation of reprisal. Although
Ms. Gray was a whistleblower, we conclude that her protected disclosures were not
contributing factors in the personnel action taken against her because responsible
ANC management officials lacked knowledge of the disclosures.

        However, we determined that, with respect to the employment and
termination of Ms. Gray, ANC management demonstrated an obvious failure to
exercise sound personnel management. Contrary to Agency regulations and
practice, ANC management elected to terminate Ms. Gray, rather than make a
reasonable effort to address public affairs policy issues that she raised, provide her
suitable guidance, or document performance deficiencies that ANC management
later claimed formed the basis for the termination.

       Our report of investigation is attached. We recommend that you consider
corrective action with respect to responsible ANC officials and an appropriate
remedy for Ms. Gray. A response within 60 days would be appreciated. If you
have any questions, please contact me or Mr. Dan Meyer, Director, Civilian
Reprisal Investigations, at




                                          Donald M. Horstman
                                      Deputy Inspector General for 

                                      Administrative Investigations 


Attachment:
As stated
CRI-HL109655



                         WHISTLEBLOWER REPRISAL INVESTIGATION

                                        Arlington National Cemetery

                                  INTRODUCTION AND SUMMARY

        We initiated this investigation in response to a Defense Hotline complaint on
October 10, 2008, from Ms. Gina Gray, a former GS-12, Public Affairs (PA) Specialist,
U.S. Army, Arlington National Cemetery (ANC), Arlington, VA. Ms. Gray was referred to the
Office of the Inspector General, U.S. Department of Defense (OIG DoD), Civilian Reprisal
Investigations Directorate (CRI), by the Project on Government Oversight.

      Ms. Gray alleged that she suffered 12 acts of reprisal for making protected disclosures.
Ms. Gray’s disclosures pertained to the restriction of media access to service personnel funeral
ceremonies, and in particular, the funeral of Lieutenant Colonel (LtCol) William G. Hall,
U.S. Marine Corps (hereinafter referred to as the Hall funeral), and other matters at ANC.

        We concluded that Ms. Gray was a whistleblower as she made four communications that
qualified as protected under Title 5, United States Code, Section 2302. However, none of those
protected disclosures were contributing factors in the personnel action taken against her, because
responsible ANC management officials were not aware of those disclosures at the time they
made adverse decisions concerning Ms. Gray. We therefore did not substantiate Ms. Gray’s
allegation of reprisal. 1

         However, we determined that with respect to the employment and termination of
Ms. Gray, ANC management demonstrated an obvious failure to exercise sound personnel
management. That is, based on public affairs policy issues that Ms. Gray raised during her first
weeks of employment, ANC management elected to terminate her, rather than make a reasonable
effort to address those policy issues, provide suitable guidance to Ms. Gray, or document
performance deficiencies that ANC management later claimed formed the basis for Ms. Gray’s
termination.

       Accordingly, we recommend that the Assistant Secretary of the Army for Civil Works
consider corrective action with respect to responsible ANC officials and an appropriate remedy
for Ms. Gray.

       This report sets forth our findings and conclusions based on applicable evidentiary
standards.




1
 We acknowledge that Ms. Gray’s whistleblowing activities continued after her termination and we understand that
she contributed relevant information during a recently concluded investigation by the Army Inspector General into
ANC operations. Because those later whistleblowing activities are not germane to the matter of her termination, we
do not discuss them further in this report.


                                       FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                     2


                                             BACKGROUND

        Since 1864, ANC has been a fully operational national cemetery, drawing more than four
million visitors annually. ANC is an American shrine and hallowed ground: it is a place of
immense importance to the United States, to the military community, and to the families whose
loved ones are buried there. Today, ANC is actively involved with the funerals of military
casualties from the Iraqi and Afghanistan war fronts, as well as aging World War II veterans.
Funerals average about 27 each workday. At the family’s request, many of these military funeral
ceremonies receive media coverage.

        Ms. Gray’s primary duties and responsibilities as a PA Specialist from April 14 to
June 27, 2008, included, but were not limited to, promoting the understanding of the mission,
programs, and activities of ANC; serving as the principal PA staff advisor to ANC staff on all
matters involving PA; serving as the official spokesperson and primary contact for local and
national media; responding to media queries; preparing and reviewing information material for
public dissemination; and coordinating PA activities for official visits, funerals with media
interest, and special events. 2 Ms. Gray reported to her
                           ANC.

                                       SCOPE AND AUTHORITY

       Under the Inspector General Act of 1978, as amended, the OIG DoD is responsible for
improving the economy, efficiency, and effectiveness of the Department’s operations through
prevention and detection of fraud, waste, and mismanagement. To fulfill those responsibilities,
Congress granted the OIG DoD broad powers to conduct and supervise investigations relating to
the Department’s programs and operations. The OIG DoD achieves this goal, in part, by acting
upon information provided by federal employee(s) in investigations conducted under
Sections 7(a) and 8(c)(2) of the Inspector General Act. The OIG DoD protects the
confidentiality of sources providing information under the authority of Section 7(b) of the
Inspector General Act.

         DoD Directive 5106.01 mandates that the Inspector General “[m]aintain a whistleblower
protection program in the Department of Defense that encourages personnel to report waste,
fraud, and abuse to appropriate authorities; provides mechanisms for addressing complaints of
reprisal; and recommends remedies for whistleblowers who encounter reprisal, consistent with
applicable laws, regulations, and policies.” 3 One component of this whistleblower protection
program is to “[r]eceive and investigate… complaints of reprisal made by civilian appropriated-
fund employees” consistent with Title 5, United States Code, Section 2302 (5 U.S.C. Section
2302). 4




2
  U.S. Army PA Specialist (GS-1035-12) Position Description.
3
  DoD Directive 5106.01, (Apr. 13, 2006) at 5.19.
4
  DoD Directive 5106.01, (Apr. 13, 2006) at 5.19.1.


                                      FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                          3


        Employees of the DoD are required to report “waste, fraud, abuse, and corruption to
appropriate authorities.” 5 Title 5 U.S.C. Section 2302 (b)(8) provides protection to DoD
employees who make or prepare to make a “protected disclosure.” A protected disclosure is a
disclosure of information the employee reasonably believes evidences a violation of any law,
rule, or regulation, or gross mismanagement, a gross waste of funds, an abuse of authority, or a
substantial and specific danger to public health or safety, if such disclosure is not specifically
prohibited by law and if such information is not specifically required by executive order to be
kept secret in the interest of national defense or the conduct of foreign affairs. 6

        Title 5 U.S.C., Section 2302 (a)(2)(A)(i) through (xi) lists personnel actions which, if
taken, withheld, or threatened in reprisal for a protected disclosure, constitute “prohibited
personnel practices.” These personnel actions include disciplinary or corrective action; a detail,
transfer or reassignment; a performance evaluation; a decision to order psychiatric testing or
examination; a decision concerning pay, benefits, or award; or any other significant change in
duties, responsibilities, or working conditions.

         We employ a two-stage process in conducting whistleblower reprisal investigations. The
first stage focuses on the alleged protected disclosure, personnel actions, and acting official’s
knowledge. The second stage focuses on whether or not the Agency would have taken, withheld,
or threatened the personnel action(s) absent the protected disclosure. The first stage of the
whistleblower reprisal analysis is held to a preponderance of the evidence. 7 “Preponderance” of
the evidence is that degree of relevant evidence that a reasonable person, considering the record
as a whole, would accept as sufficient to find that a contested fact is more likely to be true than
untrue. 8

        In order to progress to the second stage of the investigative process, there must be
sufficient evidence based on proof by a preponderance of the evidence to make three findings:

         1. the complainant made a protected disclosure;

         2. the complainant was the subject of a personnel action; and

         3. the disclosure was a contributing factor in the personnel action. 9




5
  Executive Order 12731 (October 17, 1990).

6
  5 U.S.C. Section 2302 (b)(8)(A)(i-ii).

7
  5 C.F.R. Section 1209.7.

8
  5 C.F.R. Section 1201.56(c)(2). 

9
  This third finding may be established where the acting official had knowledge, actual or imputed, of the

complainant’s disclosure and the personnel action took place within a period of time subsequent to the disclosure, 

such that a reasonable person could conclude that the disclosure was a contributing factor in the decision to take the 

action. Redschlag v. Department of the Army, 89 M.S.P.R. 589, 635 (2001), review dismissed, 32 Fed. Appx. 543

(Fed. Cir. 2002) In deciding whether a personnel action occurred within a period of time sufficient to conclude the 

disclosure was a contributing factor, the probative value of the evidence may be affected by the passage of time. 

Weak but substantiating evidence may be sufficient to prove reprisal after a short time frame; stronger evidence may

be required to prove reprisal over relatively longer time frames.



                                         FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                           4


        If a preponderance of the evidence supports the three findings above, the investigation
will proceed to the second stage of the analysis. At that point, the Agency is afforded the
opportunity to provide evidence regarding the allegations and specifically, evidence that would
establish the Agency would have taken, withheld, or threatened the personnel action against the
complainant absent the protected disclosure. The second stage of analysis is held to a clear and
convincing evidence standard. “Clear and convincing” evidence is that measure or degree of
proof that produces in the mind of the trier of fact a firm belief as to the allegations sought to be
established. It is a higher standard than preponderance of the evidence, but lower than beyond a
reasonable doubt. 10

        To address the fourth element, we consider the following three factors for presence of
“clear and convincing” evidence: 11

         1.	 the strength of the Agency’s evidence in support of its personnel action;

         2.	 the existence and strength of any motive to retaliate on the part of the Agency
             officials who were involved in the decision; and

         3.	 any evidence that the Agency takes similar actions against employees who are not
             whistleblowers but who are otherwise similarly situated.

      We interviewed 10 witnesses, including the complainant, Ms. Gray, and the responsible
management officials (RMOs),
and Mr. John Metzler (Senior Executive Service), Superintendent, ANC. We also reviewed
documentation provided by Ms. Gray, the Agency, and other independent sources.

       Ms. Gray had standing to file a Section 7 Complaint 12 with the Defense Hotline because
she was a full-time civilian employee of the DoD and her position was financed with
appropriated funds. We reviewed this complaint consistent with 5 U.S.C. Section 2302 (b)(8).
Ms. Gray alleged that she was reprised against for disclosing information that she reasonably
believed evidenced a violation of rule.

                                                 CHRONOLOGY

        On April 14, 2008, Ms. Gray was hired at ANC as a PA Specialist in probationary status
for one year. 13




10
   5 C.F.R. Section 1209.4(d).

11
   Carr v. Social Security Admin., 185 F.3d 1318, 1323 (Fed. Cir. 1999) (stating it is appropriate to consider the 

strength of the Agency’s evidence in support of its personnel action when determining whether the Agency has

shown by clear and convincing evidence that it would have taken that action in the absence of the employee’s 

protected disclosure).

12
   5 U.S.C. Appendix, Section 7(A)(2008) (provisions by which a DoD employee may file complaints with the

Inspector General).

13
   Standard Form 50-B – Notification of Personnel Action (Apr. 14, 2008). 



                                         FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                      5


       On April 17, 2008,                    expressed “her wishes for civilian media to cover
the funeral ceremony” of her husband, LtCol Hall. LtCol Hall was a Marine killed by an
improvised explosive device in Iraq on March 29, 2008. 14

        On April 23, 2008,                      set the ropes where the media was to be designated
for the Hall funeral. 15 When Ms. Gray escorted the media to the funeral site, she testified that
the original designated location had been moved and the media became upset over the distance
from and their obstructed view of the funeral site.                testified that Ms. Gray requested
her to see if the media “could get closer” to the funeral site.               asked
if he would “speak with the media because they [the media] were complaining about the distance
that they were from the gravesite” and that “they could not see [the funeral site].”
                    did so, however, because the family was approaching “it was just too late to
do anything.” Both                         and               testified that there were “larger
monuments” and “[head]stones” that obstructed the media’s view of the funeral at the location
where the media was placed. 17 That morning, LtCol Hall was laid to rest at ANC. He was the
most senior officer casualty of the Iraq war at the time. 18

       On April 24, 2008, the Washington Post reported on the funeral ceremony of LtCol Hall.
Specifically, the Post wrote,

                 Journalists were held 50 yards from the service, separated from the
                 mourning party by six or seven rows of graves, and staring into the
                 sun and penned in by a yellow rope. Photographers and reporters
                 pleaded with Arlington officials… ‘We’re not going to be able to
                 hear a thing,’ a reporter argued. ‘Mm-hmm,’ an Arlington official
                 answered. The distance made it impossible to hear the words of
                 Chaplain Ron Nordan… Nor does the blocking of funeral coverage
                 seem to be the work of overzealous bureaucrats. Gina Gray,
                 Arlington’s new public affairs director, pushed vigorously to allow
                 the journalists more access to the service yesterday but she was
                 apparently shot down by other cemetery officials. 19

      Ms. Gray testified that she was not a source for Washington Post reporter
Mr. Dana Milbank’s article. 20


14
   Memorandum from                                                            , Marine Barracks Washington, D.C.,
to OIG DoD, Media Coverage concerning the funeral of                            at ANC (Apr. 8, 2009).
15
   OIG DoD Interview of                    (Apr. 29, 2009) at 31.                     testified that the original
location was changed “because the Marine Corps, and the Air Force, and the Navy put their escorts at the foot of the
grave” and “we [ANC] just can’t put you [the media] in the middle of the funeral.”
16
   OIG DoD Interview of            (Apr. 28, 2009) at 26 and 28.
17
   OIG DoD Interview of                    (Apr. 29, 2009) at 31 and OIG DoD Interview of
(Apr. 28, 2009) at 26.
18
   William Gregory Hall, ANC, http://www.arlingtoncemetery.net/wghall.htm.
19
   Dana Milbank, What the Family Would Let You See, the Pentagon Obstructs, Washington Post (Apr. 24, 2008) at
A3.
20
   OIG DoD Interview of Ms. Gray (Jan. 15, 2009) at 22.


                                        FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                         6


        On or about April 24, 2008, Ms. Gray asked             , “Who says where the media
       21
goes?”               testified that Ms. Gray’s “biggest complaint was that the media could not
see and were not close enough” 22 and that “she (Ms. Gray) just thought that the policy was not
right and what we were doing was not right (in reference to the Hall funeral).” 23

       On April 24, 2008, Ms. Gray sent an e-mail to                                         ,
U.S. Army Office of the Chief of Public Affairs (OCPA);
OCPA; and                                                             U.S. Army; regarding
media access restriction. Citing a legal review of proposed regulations for media at the
cemetery, Ms. Gray wrote, “there is some very strong language in favor of allowing media
coverage (within reason) and directly contradicts what I have been verbally directed to do… ”
She continued,

                 Memorandum published on 18 Mar 2004 and distributed by
                 MG Jackman [MG Galen Jackman, former Military District of
                 Washington (MDW) Commanding General] clearly establishes
                 ground rules… memorandum further states that ‘media will be
                 allowed in an area designated by the U.S. Army MDW and placed
                 by the Superintendent of ANC. The distance will be between 75 to
                 100 feet from the ceremony or gravesite. The U.S. Army MDW
                 PAO (Public Affairs Office) may allow slight media movement to
                 the left and right to ensure the media have an unobstructed view of
                 the service.’ … While it sets a good standard, I believe some
                 improvements could and should be made as soon as possible.

        Further, with regard to the Jackman Memo, Ms. Gray stated, “I know that this was prior
to the breakaway of the public affairs from MDW and putting it in ANC’s hands, but I think
there are some guidelines and precedents that have been put out.” 24

        On April 25, 2008, Ms. Gray sent an e-mail to Mr. Ryan McCarthy, Special Assistant to
the Secretary of Defense;                                           , whereby Ms. Gray attached
several documents “outlining the rules of media coverage at the cemetery.” In this e-mail,
Ms. Gray also wrote that                    briefed her that ANC used media guidance in the
current Code of Federal Regulations (CFR), and that he handed her the proposed revision to the
applicable section of the CFR and told Ms. Gray to “use [it] as a guideline in the future until it
becomes policy.” Ms. Gray continued,




21
   OIG DoD Interview of         (Apr. 28, 2009) at 39.
22
   Id. at 40.
23
   Id. at 36.
24
   E-mail from Ms. Gray to                       and        More Documentation (Apr. 24, 2008,
9:10 p.m.).


                                   FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                      7


                                      told me this afternoon that he would contact
                 legal to see if we could publish this [proposed CFR 553] and issue
                 this as firm guidance until the proposed changes have been
                 codified… with regards to the events of LtCol Hall’s funeral, I
                 have attached a timeline of events from my perspective. 25

        Approximately one to two days following the Hall funeral and as a consequence of the
April 24, 2008, Washington Post article,              testified that “the Secretary of the Army or
the Secretary of Defense called Mr. Metzler and asked us to explain what occurred at the Hall
service.” 26 Additionally, sometime in this time frame, Ms. Gray communicated orally to
                                                Joint Force Headquarters - National Capital
Region, MDW PA Office, her concerns regarding media access during the Hall funeral.
Specifically,             testified that Ms. Gray discussed the events surrounding the Hall
funeral and that she “was concerned because she felt that the media were being blocked… she
basically stood up and said we need to move folks (the media attending the Hall funeral).” 27

        On April 28, 2008,
sent an e-mail to Mr. Metzler, whereby the Office of Secretary of Defense (OSD) requested an
executive summary of the events surrounding the Hall funeral. 28 Later on this day, Ms. Gray
sent an e-mail to          whereby she wrote, “They have not given me a copy of the exsum
(executive summary)… there are variations of the truth being written up… the answers coming
out of here are not my answers, against my advice, not based on facts, and I will not be part of it.
                                                                       29
Very anti-media sentiment coming from deputy [

        On April 28, 2008,                                                                 sent
an e-mail to Mr. Metzler,           , and other U.S. Army officials requesting “a summary of
the policy about media access. We want to send SD (Secretary of Defense) as a back-up to your
EXSUM (Executive Summary)… control of the media during the ceremonies… distances that
are allowed… if family not available, who makes that decisions for media access” 30

        On April 29, 2008, ANC issued a media release stating,

                 In light of heightened interest surrounding the recent events
                 regarding USMC LtCol William Hall’s funeral services, ANC is
                 reviewing its current procedures on media coverage and will
                 publish standard guidelines that will provide transparency in the
                 expectation for members of the press, not interfere with military
                 funeral protocol, and respect the family’s right to mourn privately.
                 A media roundtable with ANC officials will be held on Wednesday

25
   E-mail from Ms. Gray to                                             and            ANC Documents
(Apr. 25, 2008, 7:19 p.m.).
26
   OIG DoD Interview of               (Apr. 28, 2009) at 24-25.
27
   OIG DoD Interview of                (Apr. 15, 2009) at 10 and 12-13.
28
   E-mail from               to Mr. Metzler and other Army officials, EXSUM (Apr. 28, 2008, 10:08 a.m.).
29
   E-mail from Ms. Gray to              FW: EXSUM Additional Info (Apr. 28, 2008, 12:34 p.m.).
30
   E-mail from                 to Mr. Metzler,             and other U.S. Army officials, EXSUM additional info
(Apr. 28, 2008, 11:42 a.m.).


                                        FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                           8


                 30 April 2008 in Room 1E462 of the Pentagon to discuss current
                 and future media practices. 31

       On April 30, 2008, a media roundtable was held with representatives from the media,
MDW, Army PA, and ANC officials to discuss media practices at ANC as a result of media
coverage of the Hall funeral. 32

       In early May 2008, 

         Fort Myer, testified that he met with 
           to discuss issues she was having with
Ms. Gray.             further reported that at this meeting “She               was considering
terminating her based on that fact. She asked me basically if we could do it. Can we terminate
her because they did not think she was working out.” At this point,             advised
                                      33
to document these reported incidents. Mr. Metzler also testified that in “the first part of May”
           asked him if she could terminate Ms. Gray. At which point, Mr. Metzler advised
           that “[Ms. Gray] needed more time.” 34

       On May 7, 2008, the Stars and Stripes newspaper reported on the media issues
surrounding ANC. Specifically, Stars and Stripes reported,

                 It seems that Hall’s family was asked, as all families are in these
                 circumstances, whether the media could be present. They said,
                 ‘yes.’ Reporters and cameramen were indeed present, but were
                 only allowed to observe the pre-funeral procession. They were held
                 far away from the graveside service and the family, so far away
                 that they could not hear the chaplain’s words or take close-up
                 photographs… even the Public Affairs Director at Arlington, Gina
                 Gray, sought to have the media moved closer, but was overruled…
                 I found the man in the know: Thurman Higginbotham, Deputy
                 Superintendent of the cemetery. He made no apologies for
                 keeping the press at a distance. 35

      In approximately mid-May 2008, Mr. Metzler recalled that there was a meeting between
                             and himself to discuss the events surrounding the Hall funeral
and Ms. Gray’s involvement. In reference to what was discussed with respect to Ms. Gray,
Mr. Metzler testified,




31
   ANC Media Release (Apr. 29, 2008).
32
   OIG DoD Interview of Ms. Gray (Jan. 15, 2009) at 55. See also OIG DoD Interview of
(Apr. 29, 2009) at 35-36, 42, and 63 and OIG DoD Interview of             (Apr. 28, 2009) at 61-63.
33
   OIG DoD Interview of             (Apr. 16, 2009) at 23-24.
34
   Id. at 54-55.
35
   Dave Mazzarella, Agendas collide at Arlington National Cemetery, Stars and Stripes (May 7, 2008).


                                       FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                               9


                I think her [Ms. Gray’s] lack of following his [
                instructions and/or                         instructions. Again,
                she’s [Ms. Gray] only on board two weeks and she’s just too new
                here to understand what’s going on here and we probably needed
                to explain to her in more detail or we needed to explain to her
                again the sensitivity of the funerals. 36

        On May 20, 2008, Ms. Gray sent an e-mail to            whereby she detailed ANC
personnel regarding Memorial Day public affair assignments and provided her opinion of PA
practices. Specifically, Ms. Gray wrote,

                If you feel that you want ANC non-public affairs people involved
                beyond running the visitors center then I would strongly object…
                GOOD public affairs is what you don’t see, and PAO’s are trained
                to compartmentalize information and react quickly. An admin
                officer in a press box is not a PAO – it’s an admin officer in a press
                pit. MDW has offered their trained personnel and institutional
                knowledge, and that is something we can’t afford to lose on the
                one day of the year that we get the most coverage… In the end, we
                all work for the Army, and my decision making process is based
                on one thing: ‘Is it good for the Army?’… I would be remiss in my
                duties as a PAO if I didn’t advise that we use PA trained folks for a
                PA mission and we have more than enough.

        The following morning, May 21, 2008,                     responded to Ms. Gray and informed
                                                                7
her that she forwarded “your info to

         On May 21, 2008,           sent an e-mail to              whereby in referencing the
May 20, 2008, e-mail from Ms. Gray to              , above, asked           to “Please review to
see if this is insubordination.” 38       testified that his office told           the e-mail “was
                       39
not insubordination.”

      On May 22, 2008,                      sent an e-mail to                      and Mr. Metzler,
whereby in referencing the May 20, 2008, e-mail from Ms. Gray to                       wrote,

                Her [Ms. Gray’s] e-mail to           is characterized in several ways;
                disrespectful for a supervisor; insubordination and probably other
                charges… We can’t let this go without formal action my
                suggestions are; 1. If she is probationary, remove her now, 2…
                disciplinary taken and advise her she is probationary, 3. Pull the
                PAO responsibility from her and give it to           for Memorial

36
   OIG DoD Interview of Mr. Metzler (Apr. 17, 2009) at 34-35 and 37-38.
37
   E-mail from Ms. Gray to            and Mr. Metzler, Memorial Day PAO Assignments (May 20, 2008, 6:44 p.m.)
and E-mail from             to Ms. Gray, RE: Memorial Day PAO Assignments (May 21, 2008, 7:48 a.m.).
38
   E-mail from           to           FW: Memorial Day PAO Assignments (May 21, 2008, 1:39 p.m.).
39
   OIG DoD Interview of            (Apr. 16, 2009) at 36.


                                     FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                     10


                 Day to show her we can and have done this without her and
                 removal or disciplinary action… We need to let her go now; I’d
                 hate to see what kind of attitude she will have after doing one of
                 these ceremonies. We can’t let this go. 40

      On May 27, 2008,               sent an e-mail to         whereby she wrote,                            I
have more information in reference to the removal for Gina Gray.” 41

       On June 2, 2008,                    sent an e-mail to           requesting “the status of the
removal letter?” Later that day,                 replied, “If you want to terminate Gina (Ms. Gray)
now, I’ll send the letter for                                      to review.” 42

       On June 3, 2008,               provided Ms. Gray with her civilian evaluation report form
(DA Form 7222-1). This form should be provided to an employee by a supervisor within 30
days of reporting for duty in order to outline and clarify their significant duties, responsibilities,
expectations, and performance objectives for the upcoming year. 43

        On June 3, 2008, Ms. Gray sent an e-mail to           where she questioned the
“increasingly hostile and contentious” work environment and               refusal to address her
“face-to-face” since “outlining my suggestions for Memorial Day.” Ms. Gray also wrote, “What
I am asking for is an environment of professionalism… where I don’t feel like I am being
punished for knowing the standards of my job as prescribed by the Army and the DoD.” 44

        On June 6, 2008, Ms. Gray sent a letter to Senator John W. Warner communicating her
belief that “there is a serious public relations problem at ANC adversely affecting our mission
and reflecting poorly upon the care we give our men and women in uniform.” Ms. Gray further
wrote,

                 Shortly after arriving, problems began to occur with cemetery
                 administration officials after I questioned the existence and
                 legitimacy of public affairs policies that didn’t seem to exist… the
                 blatant disregard of established regulations is disappointing… I
                 refused to tell reporters who were calling about our media policies
                 that it is regulations that prevent them from getting a good shot.
                 There were no such regulations in place and I would not lie. 45



40
   E-mail from                      to            and Mr. Metzler, Gina Gray (May 22, 2008, 8:21 a.m.).
41
   E-mail from              to           Gina Gray (May 27, 2008, 8:13 a.m.).
42
   E-mail from              to           Status (June 2, 2008, 11:03 a.m.) and E-mail from           to
RE: Status (June 2, 2008, 11:17 a.m.).
43
   AR 690-400 (Oct. 16, 1998) Chapter 4302, Total Army Performance Evaluation System, Section 1-5(a).
44
   E-mail from Ms. Gray to               RE: PAO (June 3, 2008, 10:44 a.m.).
45
   Letter from Ms. Gray to Senator Warner (June 6, 2008). We determined the last line is in reference to Ms. Gray
stating that there were no regulations allowing ANC to restrict the media from getting a ‘good shot.’ See also
OIG DoD Interview of Ms. Gray (Jan. 15, 2009) at 31 whereby Ms. Gray testified that she was directed by
                    to lie to the media.


                                        FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                               11


        On June 17, 2008,                 , a reporter for Voice of America News, sent an e-mail to
                                and Ms. Gray asking if there were “any updates on coverage
procedures for funerals at Arlington?” 46

       On June 24, 2008, Senator Warner sent a letter to Mr. Geoff Morrell, Press Secretary,
U.S. Department of Defense, to request “a summary of the guidelines that shape ANC’s
media coverage policy, along with the regulations and procedures for their implementation.” 47

       On June 24, 2008,            sent an e-mail to          The e-mail contained an
attachment with a one-page chronology of events from June 17-23, 2008, entitled “Removal
Information for Gina Gray.” Specifically,            wrote,

                Ms. Gray was not in on June 17, 2008, so I stayed to escort the
                media. Not knowing Ms. Gray’s illness, I called to ask her who I
                was to meet at the gate… Ms. Gray provided me no detail
                information (regarding her illness)… On June 19th… media from
                the Discovery Channel was at the gate (ANC gate)… it was
                scheduled with Gina… I had no knowledge of such media
                request… On June 23rd I was notified… that Gina approved media
                for the 3:00 service… I was not able to accommodate the media…
                since I had no knowledge of the request… Ms. Gray withholds
                detailed information from me. I only receive a portion of what is
                going on. 48

       On June 25, 2008, Ms. Gray met with Major General (MG) Richard J. Rowe,
Commander, MDW. She gave MG Rowe a binder of information and reported “major
problems” at ANC to include allegations of failure to follow Army regulations, contract fraud,
and budget mismanagement. 49

        On June 27, 2008,            sent an e-mail to           The e-mail contained an
attachment with a chronology of events used to provide “supporting documentation for
termination of Ms. Gray.” In addition to the details provided to         in the June 24
chronology of events, above, this chronology also included events beginning on April 30, 2008,
as follows:

                On April 30, 2008… there was a round table meeting held at the
                Pentagon… she [Ms. Gray]… left the office with a Navy Officer
                and did not return… she [did not] tell us she was leaving.
                Ms. Gray showed inappropriate and disrespectful behavior…
                Ms. Gray’s e-mail (May 20, 2008, e-mail, above) to me was

46
   E-mail from Mr. Pessin to                               and Ms. Gray, RE: Reminder – Access Follow-up
(June 19, 2008, 11:33 a.m.).
47
   Letter from Senator Warner to Mr. Morrell (June 24, 2008).
48
   E-mail from            to          Removal Information for Gina Gray (June 24, 2008, 1:41 p.m.).
49
   OIG DoD Interview of Ms. Gray (Jan. 15, 2009) at 114-117 and Memorandum for Record from Ms. Gray to
OIG DoD (Apr. 3, 2009).


                                      FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                            12


                 disrespectful and inappropriate as her supervisor. She failed to
                 follow instructions, by setting up the meeting with the ANC staff
                 to make assignments… Ms. Gray notified several people of her
                 situation [in regards to Ms. Gray being ill], but when I e-mailed her
                 to ask about work and followed up with a phone call she said I was
                 causing her stress… recommend immediate removal. 50

        On June 27, 2008,               issued Ms. Gray a letter of termination during probationary
period effective immediately.               cited as grounds for probationary termination failure
“to follow my instructions… to effectively communicate with me and Deputy Superintendent…
to provide me with complete details for your work assignments, been disrespectful to me as your
supervisor and failed to act in an in appropriate manner.” 51

        On July 9, 2008, Mr. Metzler sent a letter to Senator Warner in response to his June 24,
2008, letter, above. Mr. Metzler wrote,

                 I assure you that there is not a deliberate effort to exclude the
                 media from the funerals… Based on the terrain or military
                 formations required, we make every reasonable effort to
                 accommodate the press without infringing on ceremonial protocol
                 or the families’ right to grieve… It is difficult to apply one set of
                 standards and rules when handling something as sensitive as the
                 death of a loved one. While one family may allow a reporter to
                 stand next to them, another family may not want to see the media
                 at all… I am sure that you appreciate… our responsibility to
                 accommodate the families’ wishes. 52

       On October 10, 2008, Ms. Gray filed a whistleblower reprisal complaint with the Defense
Hotline.

                                      FINDINGS AND ANALYSIS

1. Did Ms. Gray make a protected disclosure? Yes.

        To determine whether a disclosure qualifies as protected, we employ a two-step process
based on statute and case law. First, we determine whether the disclosure fits within the
definition of 5 U.S.C. Section 2302 (b)(8). Next, we determine whether the disclosure fits within
the categories of protected disclosures recognized by the U.S. Court of Appeals for the Federal
Circuit in Huffman v. Office of Personnel Management, 263 F.3d 1341, 1353 (Fed. Cir. 2001).




50
   E-mail from            to           Termination Info – Gray (June 27, 2008, 11:18 a.m.).
51
   Memorandum from               to Ms. Gray, Termination During Probationary Period (June 27, 2008).
52
   Letter from Mr. Metzler to Senator Warner (July 9, 2008).


                                      FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                        13


        Title 5 U.S.C. Section 2302 prohibits an Agency from taking, failing to take, or
threatening to take a personnel action against a civilian employee, organized under Title 5
(appropriated fund), for making a protected disclosure. Section 2302 defines a protected
communication as any disclosure of information which the employee reasonably believes
evidences: 53

         1.	 a violation of any law, rule, or regulation; or

         2.	 gross mismanagement, a gross waste of funds, an abuse of authority, or a
             substantial and specific danger to public health or safety.

       In Huffman, the U.S. Circuit Court of Appeals for the Federal Circuit outlined the
following three categories into which a disclosure may fall. Only the latter two constitute
disclosures that are protected under the Whistleblower Protection Act:

         1.	 disclosures made as part of normal duties through normal channels;

         2.	 disclosures made as part of normal duties outside of normal channels; and

         3.	 disclosures outside of assigned duties.

       We identified five communications made by Ms. Gray, from April 23 to June 6, 2008, for
analysis to determine whether they are protected disclosures under 5 U.S.C. Section 2302 and
Huffman:

         1.	 On April 23, 2008, during the Hall funeral, Ms. Gray asked if the media “could get
             closer” to the funeral site. 54         asked                      if he would “speak
             with the media because they (the media) were complaining about the distance that
             they were from the gravesite” and that “they could not see [the funeral site].” 55
                                 did so, and according to Ms. Gray, her supervisors “exchanged
             words” with media representatives. 56             recalled telling Ms. Gray that the
             family was approaching and that “it was just too late to do anything.” 57




53
   To satisfy this element the complainant is not required to disclose information that actually evidences one of those
conditions. Rather, the complainant is only required to make a non-frivolous allegation that the matters disclosed
were ones that a reasonable person in his or her position would believe evidenced one of those conditions. See
Rusin v. Dep’t of the Treasury, 92 M.S.P.R. 298, 318 (2002). See also Garst v. Dep’t of the Army, 60 M.S.P.R. 514,
518 (1994). Reasonable belief is an objective standard. That is, a disinterested observer with knowledge of
essential facts known to and readily ascertainable by the employee could reasonably conclude that the actions
evidence a violation of a law, rule, or regulation. See Lachance v. White, 174 F.3d 1378, 1381 (Fed. Cir. 1999);
accord Russin, id.
54
   OIG DoD Interview of                (Apr. 28, 2009) at 39.
55
   Id. at 26 and 28.
56
   OIG DoD Interview of Ms. Gray (Jan. 15, 2009) at 11.
57
   OIG DoD Interview of                (Apr. 28, 2009) at 26.


                                         FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                14


            On April 24, 2008, the Washington Post reported on the Hall funeral, noting,

                      Nor does the blocking of funeral coverage seem to be the
                      work of overzealous bureaucrats. Gina Gray, Arlington’s new
                      public affairs director, pushed vigorously to allow the journalists
                      more access to the service yesterday but she was apparently shot
                      down by other cemetery officials. 58

            According to Ms. Gray, the Washington Post article generated numerous media
            inquiries regarding policy concerning media involvement in ANC channels. As a
            result, Ms. Gray sought guidance in her response to those media inquires.

            Approximately one day after the Hall funeral, on April 24, 2008, Ms. Gray asked
                        “Who says where the media goes?” 59 In response to media inquiries
            following the Washington Post article, Ms. Gray also asked                        what
            standard to cite for media placement. 60             testified that Ms. Gray’s “biggest
            complaint was that the media could not see and were not close enough” 61 and that
            “she [Ms. Gray] just thought that the policy was not right and what we were doing
            was not right (in reference to the Hall funeral). That was her opinion.” 62

            Within approximately two weeks of the Washington Post article being published,
                       reported that Ms. Gray cited the Jackman Memo as a possible governing
            regulation on media access during funerals. Specifically,          reported that,
            “… since April 2008, Ms. Gray did decide to use the MDW rules (the Jackman
            Memo). She [Ms. Gray] did state that she would use the rules she had since the
            CFR [32001] rules were not published. That was her decision, not mine. I did not try
            to sway her one way or the other.” 63

        2. On April 24, 2008, Ms. Gray sent an e-mail to                           and
                     regarding media access restriction during the Hall funeral. Specifically,
           Ms. Gray wrote,

                   I have just found some documentation that started on
                   2 December 2003 with a memorandum… regarding a legal review
                   for media guidelines for ANC. There is some very strong language in
                   favor of allowing media coverage (within reason) and directly contradicts
                   what I have been verbally directed to do… Memorandum published
                   on 18 Mar. 2004 and distributed by MG Jackman clearly establishes
                   ground rules. Memorandum further states that ‘media will be allowed

58
   Dana Milbank, What the Family Would Let You See, the Pentagon Obstructs, Washington Post (Apr. 24, 2008) at
A3.
59
   OIG DoD Interview of              (Apr. 28, 2009) at 39.
60
   OIG DoD Interview of Ms. Gray (Jan. 15, 2009) 27-28.
61
   OIG DoD Interview of              (Apr. 28, 2009) at 40.
62
   Id. at 36.
63
   E-mail from             to OIG DoD, FW: ANC Documents (Dec. 17, 2009, 3:57 p.m.). See also e-mail from
              to OIG DoD, Follow-up Information (Dec. 18, 2009, 9:33 a.m.).


                                      FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                 15


                    in an area designated by the U.S. Army MDW and placed by the
                    Superintendent of ANC. The distance will be between 75 to 100 feet
                    from the ceremony or gravesite. The U.S. Army MDW PAO may
                    allow slight media movement to the left and right to ensure the media
                    have an unobstructed view of the service.’ 64

        3.	 Ms. Gray orally communicated her concerns approximately April 24 or April 25,
            2008, to              regarding media access during the funeral. Specifically,
                        testified that “she [Ms. Gray] was extremely concerned because she
            communicated that (the events surrounding the Hall funeral) back with our office. I
            know that she talked with me and she was concerned because she felt that the media
            were being blocked.”                continued,

                    She communicated that placement of the media was a continuing
                    concern for her. As far as I know, that particular ceremony was the
                    one that caused the largest stress for her because the movement of
                    the media line was done in front of the media. Although she tried to
                    talk to the official there about why they needed to see, it apparently
                    fell on deaf ears. She was very upset about that… Gina (Ms. Gray)
                    expressed to me and a couple of people that they were really not happy
                    with her because she basically stood up and said we need to move
                    folks (the media attending the Hall funeral). 65

            Ms. Gray reported that she told             the events surround the Hall funeral and
            she “believed what                    and              did (with respect to media
            access during the Hall funeral) was wrong, unethical, and mean-spirited.” 66

        4.	 On June 6, 2008, Ms. Gray sent a letter to Senator John W. Warner communicating
            her belief that

                     there is a serious public relations problem at ANC adversely
                     affecting our mission and reflecting poorly upon the care we give
                     our men and women in uniform… Shortly after arriving, problems
                     began to occur with cemetery administration officials after I questioned
                     the existence and legitimacy of public affairs policies that didn’t
                     seem to exist… the blatant disregard of established regulations is
                     disappointing… I refused to tell reporters who were calling about
                     our media policies that it is regulations that prevent them from getting
                     a good shot. There were no such regulations in place (restricting
                     the media from getting a ‘good shot’) and I would not lie. 67

64
   E-mail from Ms. Gray to                              and             More Documentation (Apr. 24, 2008,
9:10 p.m.). 

65
   OIG DoD Interview of
                 (Apr. 15, 2009) at 10 and 12-13.
66
   Memorandum for Record from Ms. Gray to OIG DoD (Jan. 22, 2010).
67
   Memorandum from Ms. Gray to Senator Warner (June 6, 2008) and e-mail string back and forth confirming
receipt of letter and inquiring into the “status of my [Ms. Gray’s] complaint” from Ms. Gray to


                                       FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                         16



         5.	 On June 25, 2008, Ms. Gray orally communicated to MG Rowe during his open
             office hours, “major problems” at ANC to include allegations of failures to follow
             Army regulations, contract fraud, and budget mismanagement.

        With respect to Ms. Gray’s first communication above, the evidence established that her
activity at the April 23, 2008, funeral failed to qualify as a protected disclosure both under
5 U.S.C. Section 2302 and the rule in Huffman and its progeny. Specifically, the evidence
established that during the Hall funeral, Ms. Gray’s only communication of interest consisted of
asking supervisors whether the press could be moved closer to the grave site. This was prompted
by media complaints that they were too far away and couldn’t hear the funeral procession. In
short, Ms. Gray simply conveyed a media complaint to her supervisors. She did not
communicate any potential violation of law, rule, or regulation at the time. Additionally, this
communication was part of her normal duties and addressed through normal channels.
Interacting with the media and raising media concerns to her supervisors fell within her duties as
a public affairs specialist, and the normal and logical channel for Ms. Gray to address media
concerns was with her supervisors. 68

        Ms. Gray’s own testimony further supports a conclusion that her comments at the funeral
were a routine subordinate-supervisor exchange in the course of her duties: “And I honestly
didn’t realize that it was going to be that much of an issue until the following day (when the
Washington Post published their article)… ” 69 Ms. Gray’s question to her supervisors was not a
disclosure of information that a disinterested observer would reasonably believe evidenced a
violation of law, rule, or regulation. Furthermore, to qualify as a protected disclosure under
Huffman, the allegation of wrongdoing must be made to someone other than the wrongdoer. 70
At the Hall funeral, Ms. Gray’s interaction and communication was with                         and
             the two people she considered to be the wrongdoers and responsible for media
placement that day. 71 Therefore, Ms. Gray’s communication conveying a question from the
media to her supervisors does not qualify as a protected disclosure and does not satisfy Huffman.

       We determined that Ms. Gray’s second communication, her e-mail to 

                            and 
             qualified as a protected disclosure. Specifically,
approximately one day after the Hall funeral, on April 24, 2008, Ms. Gray asked
                     what law to cite for restricting media access. 72 Ms. Gray acknowledged that
                     told her, “It’s the law” and that he cited to 32 CFR as guidance. 73 Ms. Gray
reported that after she learned of and reviewed potentially applicable guidance, including the
Jackman Memo, she reported her concerns about the adequacy of that guidance and ANC’s

Senator Warner Staffer, RE: From Senator Warner’s Office (June 22, 2008, 7:40 p.m.). See also OIG DoD 

Interview of Ms. Gray (Jan. 15, 2009) at 31 whereby Ms. Gray testified that she was told to lie to the media.

68
   Ms. Gray’s position description states the following applicable responsibilities: “Assists media representatives in

obtaining information… Serves as… primary contact for local and national media, which requires immediate 

responsiveness. Responds to media queries.”

69
   OIG DoD Interview of Ms. Gray (Jan. 15, 2009) at 19-21.

70
   Willis v. Dep’t of Agriculture, 141 F.3d 1139, 1143 (Fed. Cir. 1998).

71
   OIG DoD Interview of Ms. Gray (Jan. 15, 2009) at 19-20.

72
   Id. at 27-28.

73
   Id. at 8.



                                         FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                     17

                                                74
handling of media to               and             Ms. Gray reported that she “believed that
by reaching out to OCPA officials (            and           ), that they would intervene and
some resolution could be reached with ANC officials on how to properly handle the media.” 75

        We noted that the Jackman Memo may have been technically inapplicable because of an
ANC organizational realignment. However, it retained some standing as a source of guidance.
That is, ANC was removed from certain aspects of MDW management on October 29, 2004.
The responsibility for ANC public affairs policy was assigned to the Army Chief of Public
Affairs. 76 However, no substitution or similar policy was issued regarding media placement,
leaving the reasonable assumption the Jackman Memo represented guidance. Indeed,
                    acknowledged so in his testimony (“I do remember having the [Jackman]
memo and saying that this is our policy until Army decides there will be something
different.”). 77

     We also determined that Ms. Gray’s second communication fell outside of her chain of
command, therefore meeting 5 U.S.C. Section 2302’s application under Huffman.

        With respect to Ms. Gray’s third communication, her oral conversation with
             in order for this communication to be protected, it must be sufficiently specific and
not constitute mere vague allegations of wrongdoing regarding broad and imprecise matters. 78
We determined that Ms. Gray’s communication with                  constituted a protected
disclosure. Ms. Gray’s communication with                 relayed concerns similar to those of
                           and             above, and noted that during the Hall funeral, the
“media were being blocked” by an “official.” Ms. Gray communicated that she “stood up and
said we (ANC) need[ed] to move folks (the media attending the Hall funeral).” We therefore
determined that Ms. Gray clearly expressed her concerns that the media was blocked access to
the Hall funeral to someone other than the wrongdoer in seeking remedial action. We also
concluded that Ms. Gray’s oral communication with                 met the requirements of a bona
fide protected disclosure as defined under 5 U.S.C. Section 2302 and Huffman. These
requirements were met as Ms. Gray’s communication to                  fell outside of her chain of
command and was not made as part of her normal duties.

       With respect to Ms. Gray’s fourth communication, we determined that Ms. Gray’s
complaint to Senator Warner was a protected disclosure under 5 U.S.C. Section 2302. Under
Section 2302, no personnel action may be taken against an employee who discloses information

74
   E-mail from            to OIG DoD, FW: ANC Documents (Dec. 17, 2009, 3:57 p.m.) (“… since April 2008,
Ms. Gray did decide to use the MDW rules (the Jackman Memo). She [Ms. Gray] did state that she would use the
rules she had since the CFR [32001] rules were not published. That was her decision, not mine. I did not try to sway
her one way or the other.”).
75
   Memorandum from Ms. Gray to OIG DoD, Memorandum for Record; ANC Media Policies (Apr. 9, 2009) (“This
[Jackman] memorandum was a factor in my determination that there had been a violation of an established
regulation and prompted me to go to OCPA for guidance.”).
76
   Department of the Army, General Order 13, Army National Cemeteries (Oct. 29, 2004).
77
   OIG DoD Interview of                     (Apr. 29, 2009) at 56.
78
   Special Counsel v. Costello, 75 MSPR 562, 580, 585–86 (1997) (disclosures must be “specific and detailed, not
vague allegations of wrongdoing regarding broad or imprecise matters.”). See also Padilla v. Department of Air
Force, 55 MSPR 540, 543–44 (1992).


                                        FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                             18


to the Congress which they reasonably believe evidences a violation of any law, rule, or
regulation, or gross mismanagement, a gross waste of funds, an abuse of authority, or a
substantial and specific danger to public health or safety. 79 This communication also satisfies
Huffman because it fell outside of Ms. Gray’s chain of command and filing a congressional
complaint was not part of her normal job duties.

        With respect to Ms. Gray’s fifth and final communication, we determined that Ms. Gray’s
complaint to MG Rowe was a protected disclosure. Specifically, the requirements of 5 U.S.C.
Section 2302 were met as Ms. Gray reasonably believed that there were “major problems” at
ANC to include allegations of failures to follow Army regulations, contract fraud, and budget
mismanagement. This belief is evident in that Ms. Gray provided MG Rowe a notebook of
information evidencing her claim. 80 We also determined that Ms. Gray’s fifth communication
fell outside of her chain of command and was not made as part of her normal duties, therefore
meeting 5 U.S.C. Section 2302’s application under Huffman.

        Consequently, Ms. Gray made four communications that constitute protected disclosures
as defined under 5 U.S.C. Section 2302 and Huffman. However, Ms. Gray’s disclosures to
MG Rowe and to Senator Warner occurred subsequent to                    initial action to terminate
Ms. Gray, and therefore could not have been contributing factors in                 decision to take
the personnel action. As such, for the purposes of this investigation, we did not analyze these
disclosures any further.

2. Was Ms. Gray the subject of a personnel action? Yes.

        Ms. Gray alleged that she suffered a total of 12 personnel actions in reprisal for making
protected disclosures. Specifically, Ms. Gray alleged:

           1. April 29, 2008,                removed Ms. Gray’s job responsibility to respond to media
              queries;

           2. April 30, 2008,                required Ms. Gray to report every time she left her desk;

           3. May 1, 2008,                 removed Ms. Gray’s job responsibility to approve media
              requests;

           4. May 14 and 27, 2008,                   refused Ms. Gray’s request to be provided copies of
              timecards;

           5. May 22, 2008,                  questioned Ms. Gray’s work hours;

           6. May 27, 2008,                  changed Ms. Gray’s proposed supervisor of Mr. Metzler to




79
     5 U.S.C. Section 2302.

80
     OIG DoD Interview of Ms. Gray (Jan. 15, 2009) 116-117.



                                        FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                       19


         7. May 27, 2008,              directed Ms. Gray not to work beyond 4:30 p.m. unless
            given approval by both              and Mr. Metzler;
         8. June 3, 2008,             refused to backdate Ms. Gray’s initial Department of Army
            (DA) Form 7222-1 or “Evaluation Support Form,” which is a refined formal
            description of job duties and expectations;

         9. June 9, 2008,                   changed Ms. Gray’s job title from Director of PA to PA
            Specialist;

         10. June 9, 2008,                  terminated Ms. Gray’s BlackBerry phone service;

         11. June 24, 2008,           changed Ms. Gray’s office voicemail password and refused
             to provide the new password for several hours; and

         12. June 27, 2008,                  issued Ms. Gray a Letter of Probationary Termination.

        After completing our review of documentary and testimonial evidence, we determined
that 11 of the actions did not qualify as personnel actions. Actions number one, 81 two, four, five,
six, seven, eight, nine, ten, and eleven, above, did not meet the definition of a prohibited
personnel action under 5 U.S.C. Section 2302 (a)(2)(A) because they constituted neither a
decision concerning pay, benefits, or award; nor a significant change in duties, responsibilities,
or working conditions.

        We also determined that action number three did not warrant further investigation as this
was never a duty of Ms. Gray’s and therefore could not constitute a personnel action. To
corroborate the allegation, Ms. Gray provided the OIG DoD with three e-mails. The first one is
dated June 3, 2008, more than a month after Ms. Gray alleged that             orally removed
this duty. ANC RMOs also denied that they removed the responsibility. Therefore, we could
not determine if and when the duty change happened, but proceeded on with our analysis on the
evidence provided.

       Ms. Gray’s position description lists the responsibility of “approves or denies media
requests.” 83 The media request duty is also listed in her civilian evaluation report form
(DA Form 7222-1) under major performance objectives and standards as “responsible for
evaluating, coordinating, and scheduling all media requests.” 84 This form is provided to an
employee by a supervisor within 30 days of reporting for duty in order to outline and clarify the
employee’s significant duties, responsibilities, and performance objectives for the upcoming


81
   Allegation of reprisal number one was not supported by sufficient evidence to conclude that the action occurred.
Additionally, ANC RMOs denied they removed the responsibility. See OIG DoD Interview of Mr. Metzler
(Apr. 17, 2009) at 18 and OIG DoD Interview of                       (Apr. 29, 2009) at 95-96; and
OIG DoD Interview of               (Apr. 28, 2009) at 104 and 106-108.
82
   Id.
83
   U.S. Army PA Specialist (GS-1035-12) Position Description at 2.

84
   DA Form 7222-1 – Senior System Civilian Evaluation Report Support Form (June 3, 2008). 
                testified
that this meant all media requests were to go to Mr. Metzler for approval. See OIG DoD Interview of
(Apr. 28, 2009) at 76.


                                         FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                 20


year. This form “takes precedence over the position description.” 85 Because the DA Form
7222-1 supplants the position description, Ms. Gray would not be “approving or denying,” but
rather “evaluating, coordinating, and scheduling” media requests.

        Ms. Gray indicated her recognition of this clarification in duty when she signed the DA
Form 7222-1 on June 3, 2008. On the same day, Ms. Gray sent an e-mail to
clarifying the ‘media request’ duty. 86 Ms. Gray provided two e-mails, both dated June 12, 2008,
to corroborate her allegation that this was a removed duty. 87 These e-mails are subsequent to
Ms. Gray’s June 3, 2008, clarification of duty. Based on the facts presented: 1) RMOs denied
that they removed the responsibility, 2) the absence of evidence that the duty was performed
before June 3, 2008, 3) the precedence of the DA Form 7222-1 over the position description, and
4) Ms. Gray’s June 3, 2008, knowledge of the clarification in duty, we concluded by a
preponderance of the evidence that her responsibility with media requests was never a duty to
remove. Therefore, allegation of reprisal number three did not warrant further investigation
because it was not a personnel action.

       We therefore determined that Ms. Gray was subject to one personnel action by
            June 27, 2008, Letter of Probationary Termination as it met the definition of a
prohibited personnel action under 5 U.S.C. Section 2302 (a)(2)(A).

3. Did the acting official have knowledge, actual or constructive, of the complainant’s
protected disclosure and did the personnel action take place within a period of time
subsequent to the disclosure, such that a reasonable person could conclude that the
disclosure was a contributing factor in the decision to take the personnel action? No.

        We determined by a preponderance of the evidence that              did not have
knowledge of Ms. Gray’s second and third disclosure, above. Specifically, there was no
evidence to suggest that Ms. Gray or the recipients of Ms. Gray’s protected disclosures took
action to alert                               or any other RMO of the protected disclosures
made. 88 Because             did not have knowledge of the protected disclosures, Ms. Gray’s
whistleblowing could not have been a contributing factor in              termination decision.

       While this investigation did not progress to the clear and convincing evidence analysis in
the absence of a disclosure showing causation, the Inspector General is not limited by Huffman



85
   E-mail from                                                                        Fort Meyer to OIG DoD, RE:
DoD IG Investigation (Apr. 29, 2009, 11:27 a.m.).
86
   E-mail from Ms. Gray to              RE: PAO (June 3, 2008, 10:44 a.m.) (“Am I correct in understanding that
you want to approve every request that comes in.”).
87
   E-mail from Ms. Gray to              Monday Morning (June 12, 2008, 2:36 p.m.) (Whereby Ms. Gray asked
            permission for the Virginia Department of Tourism to shoot a “tomb guard… walking the mat on
Monday morning at sunrise.”). See also E-mail from Ms. Gray to               German film crew follow-up
(June 12, 2008, 2:12 p.m.).
88
   OIG Memorandum of Record, Conversations with                     and          (Oct. 27, 2009). See also
OIG DoD Interview of                (Apr. 15, 2009) at 23 and 36-37, whereby             did not discuss her
conversation with Ms. Gray to              and only interacted with          in preparing for Memorial Day 2008.


                                       FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                      21


in reviewing the actions of DoD managers and supervisors. 89 We therefore reviewed the
personnel action in the case, namely, the supervision and termination of Ms. Gray.

4. Related Issue: ANC failed to exhibit adequate performance and management in the
supervision and termination of Ms. Gray:

        We determined that with respect to the supervision and termination of Ms. Gray, ANC
management demonstrated an obvious failure to exercise sound personnel management. That is,
based on public affairs policy issues that Ms. Gray raised during her first weeks of employment,
ANC management elected to terminate her rather than make a reasonable effort to address those
policy issues, provide suitable guidance to Ms. Gray, or document performance deficiencies that
ANC management later claimed formed the basis for Ms. Gray’s termination.

        We recognize the distinction between federal employees serving their probationary
period and those who have completed their probation, as well as the distinction in termination
requirements between the two groups. An employee in probationary status is afforded a “trial
period” that provides them an opportunity to demonstrate suitability for continued employment.
Conversely, the Agency has an opportunity to assess the employee’s full potential, competencies
and capabilities, and has the responsibility to assess whether or not they possess satisfactory
qualifications and suitability for regular full-time employment.

       In determining whether the Agency adequately and appropriately performed and
managed the termination of Ms. Gray, we reviewed U.S. Army Regulation (AR) 600-100, Army
Leadership and AR 690-400, Total Army Performance Evaluation System.

        AR 600-100 establishes Army leadership policy and sets forth the attitude and
responsibilities for all aspects of leadership. Specifically, the regulation identifies several core
leader competencies that are applicable in assessing the performance execution of Ms. Gray’s
termination. We identified several core leader competencies including effectively
communicating by expressing ideas and actively listening to others, creating a positive
organizational climate and fostering the setting for positive attitudes and effective work
behaviors, and developing others by encouraging and supporting the growth of individuals. 90

        AR 690-400 establishes Army policy for civilian personnel performance management
programs. In short, it is the direct application of performance management. Applicable to
Ms. Gray’s termination is section 2.6(a), which states that “although formal PIPs (Performance
Improvement Plan) are not required for ratees who are serving probationary appointments, raters
normally should provide ratees who are not meeting expectations with enough information to
help them understand how they are failing and how they might improve.” 91 A reasonable
supervisor under the AR 690-400 would provide a probationary employee a formal document
89
   Inspector General Act of 1978, as amended, sections 7(a) and 8(c)(2). The evidence gathered in this investigation
warranted our review and comments.
90
   AR 600-100, Army Leadership (March 8, 2007) at 1-6, (4), (5), and (7). Further, section 1–8. Leader
development, sub-section C. states, “All leaders have a responsibility to develop those junior to them to the fullest
extent possible. In addition to institutional training and education, leaders can facilitate development through the
knowledge and feedback they provide through counseling, coaching, and mentoring.”
91
   AR 690-400, Total Army Performance Evaluation System (Oct. 16, 1998) at section 2-6(a).


                                        FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                          22


(e.g., letter of counseling or PIP) that would, at the very least, put the employee on notice that
they are not meeting the expectations of performance and/or conduct suitable for regular
full-time employment.

        With respect to Ms. Gray’s termination, as an application of Army leadership
competencies established by AR 600-100 and in the practice of performance management as
established by AR 690-400, we determined that the Agency, and specifically            , failed to
meet adequate application or performance of those standards. The following factors contributed
to our determination:

     •              did not provide Ms. Gray a single counseling document such as a letter of
         counseling or memorandum for record (MFR). While it may be argued that the Agency
         was not required to document justification to terminate Ms. Gray, it was prudent to
         document to provide evidence justifying their action.

     •	 There was a lack of corroborating evidence that                orally counseled Ms. Gray for
        the reasons cited in her termination letter.            testified that the reasons cited for
        Ms. Gray’s termination were “based on [her] observations.” 92 The OIG DoD viewed the
        testimony of                      as particularly important because he was Ms. Gray’s
        second-line supervisor. For this reason, he would have logically been privy to the issues
        surrounding Ms. Gray’s cited performance and conduct deficiencies and any action taken
        to correct them. However,                        denied direct knowledge of Ms. Gray
        being counseled for conduct and performance deficiencies and attributed his knowledge
        to only what              told him. 93                    also testified that although he had
        knowledge of the chronological summary of events that                   “turned over to
        Human Resources,” he did not have copies of the documents and never personally
        reviewed them. 94

         By providing counseling to Ms. Gray, either verbal and or in writing,          would
         have demonstrated the standards set forth in AR 600-100 and 690-400, namely
         effectively communicating to Ms. Gray that she was not meeting performance and/or
         conduct standards. This communication would have provided Ms. Gray the guidance
         required to develop as a suitable ANC employee. As Ms. Gray’s manager,
         was responsible for facilitating Ms. Gray’s development “through counseling, coaching,
         and mentoring.” 95

     •	 There was a lack of corroboration with the reasons cited in Ms. Gray’s termination letter.
        Specifically, while the general reasons cited by             as grounds for probationary
        termination were individually questioned (e.g., failure “to follow my instructions… to

92
   OIG DoD Interview of                 (Apr. 28, 2009) at 103.
93
   OIG DoD Interview of                         (Apr. 29, 2009) at 29 and 49-50 (“I was getting some indication from
             that she wasn’t getting feedback from her. I didn’t get involved. She would just mention to me she
didn’t get this, she wasn’t getting that.”… “She’s [Ms. Gray’s] not doing this, she’s not doing that. But that’s still at
the first level… I don’t get involved at that level.”). See also Id. at 76.
94
   OIG DoD Interview of                         (Apr. 29, 2009) at 80-81.
95
   AR 600-100, Army Leadership (March 8, 2007) at section 1-8c.


                                          FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                         23


         effectively communicate with me and                            … to provide me with
         complete details for your work assignments, been disrespectful to me as your supervisor
         and failed to act in an in appropriate manner”),                      Ms. Gray’s second-
         line supervisor, testified that he had “no direct knowledge” on all the reasons except the
         failure to provide complete details of Ms. Gray’s work and being “disrespectful” to
                     as a supervisor.

         With respect to complete details of Ms. Gray’s work,                       cited incidents
         that he had personal knowledge of including “the Kennedy gravesite” and “when
         [Ms. Gray] was out with her illness.” However,               did not cite “the Kennedy
         gravesite (whereby allegedly Ms. Gray gave permission to close the grave for a filming)”
         incident in her two chronological summaries of events. Regarding Ms. Gray being
         “disrespectful” to            as a supervisor,                    stated personal
         knowledge of Ms. Gray’s May 20, 2008, e-mail in reference to Memorial Day, above, out
         of the cited reasons in              two chronological summaries of events, as well as
         Ms. Gray “snapping” at               at the Memorial Day walkthrough. 96 Our review and
         testimony established that the e-mail was not insubordinate. 97

         Notwithstanding Ms. Gray’s probationary status and                 failure to put Ms. Gray
         on notice for “not meeting expectations,”            failed to provide adequate
         documentation justifying the decision to terminate Ms. Gray. Specifically, we found
         little contemporaneous documentation leading up to termination.                did not
         document any concerns regarding Ms. Gray’s conduct or performance until she wrote a
         MFR on May 26, 2008, recording her concerns regarding ANC’s 2008 Memorial Day
         event. The MFR, however, was unclear in what conduct or performance deficiencies
         Ms. Gray displayed during the Memorial Day event.98 The only documentation provided
         to the OIG DoD justifying Ms. Gray’s termination were two separate, one and three-page
         MFR chronological summaries of events described in the above chronology. Each was
         separately sent via e-mail to           on June 24 and 27, 2008, above. In those
         documents,              described and documented events that were used to support her
         recommendation for Ms. Gray’s termination. However, these summaries are dated over
         six weeks after            considered terminating Ms. Gray in early May 2008, according
         to testimony from Mr. Metzler and                          produced this documentation to
         satisfy             request to provide him with termination documentation. 99

     •	 The time of Ms. Gray’s termination, roughly two and a half months into probationary
        employment, is in accordance with AR 690-400. But the termination does not meet the

96
   OIG DoD Interview of                      (Apr. 29, 2009) at 69 and 82-85.                       also testified that
he agreed with the termination.
97
   OIG DoD Interview of            (Apr. 16, 2009) at 36.            testified that his office told           that
“It was not insubordination.”
98
   Memorandum for Record from                 Memorial Day (May 26, 2008).
99
   OIG DoD Interview of            (Apr. 16, 2009) at 35 and 27 (“Because initially they [	                      and
           ] wanted to go ahead with termination right away (early May). Both myself and the attorney said give us
some more stuff. Even though you can, it is not the right thing to do. If you want to terminate somebody we want
to hear a summary of why you want to terminate them.”… “We tell all of our supervisors to give us
documentation.”).


                                         FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                   24


        regulation’s intent for leaders “to develop those junior to them to the fullest extent
        possible.” 100 The regulation also states that “decisions to remove probationary
        employees may be made at any time during the probationary period.” This alone,
        however, does not excuse               or the Agency from properly informing Ms. Gray
        that she was “not meeting expectations.” Nor does it justify denying Ms. Gray an
        opportunity to take corrective action and ameliorate cited deficiencies. Even though
                and the Agency may not be aware of the specific language of AR 690-400, a
        previous probationary termination clearly demonstrates their clear grasp of its intent. In
        that termination, the employee was administered a mid-point counseling where “your
        standards were discussed and you were also informed on areas that need improvement.”
        Additionally, the counseling included specific events or examples that prompted
        termination.              and the Agency provided Ms. Gray with neither. Moreover, the
        previous employee’s termination took place after ten and a half months on the job;
        enough time for corrective action. Ms. Gray, on the other hand, received her notice of
        termination within approximately two and a half months of employment, without prior
        notice, and without the opportunity to take corrective action.              and the Agency
        may have operated within the letter of AR 690-400, but they failed to meet its intent by
        terminating Ms. Gray without proper development through counseling and corrective
        action.

       Additionally, we found that ANC management viewed Ms. Gray’s activities surrounding
the Hall funeral as disruptive because they resulted in high-level and public focus on ANC
operations. This contributed to the contentious relationship that developed between Ms. Gray
and her supervisors and their decision to terminate her without attempting reconciliation. The
following factors contributed to that determination:

        •	 Approximately one week following the Hall funeral, the Assistant Secretary of the
           Army for Manpower and Reserve Affairs requested ANC provide an executive
           summary of the events. An executive summary was also requested by the OSD; 101

        •	 On April 30, 2008, OCPA held a “media roundtable” where Ms. Gray,
                              OCPA officials, and selected members of the media attended.
           The purpose of the meeting was “convened… to discuss the issue” of the “critical
           column by Dana Milbank of media coverage of military funeral at ANC;” 102

        •	 Mr. Metzler testified that subsequent to the Hall funeral, ANC had several additional
           meetings with OCPA to clarify media procedures. Specifically, he testified, “[OCPA]
           was not engaged very much and the Hall funeral caused that office to start to get
           engaged;” 103

100
    AR 600-100, Army Leadership (March 8, 2007) at 1-8.
101
    OIG DoD Interview of               (Apr. 14, 2009) at 13 and OIG DoD Interview of Ms. Gray (Jan. 15, 2009) at
44-45. See also E-mail from               to Mr. Metzler and other U.S. Army officials, EXSUM (Apr. 28, 2008,
10:08 a.m.) (“We just got a call from Sec Def office. They want an EXSUM by 12:00.”).
102
    Executive Summary from MDW and                     (Apr. 30, 2008).
103
    OIG DoD Interview of Mr. Metzler (Apr. 17, 2009) at 42. See also E-mail from                    to
Ms. Hoehne, Principal Deputy Chief OCPA,                 and Ms. Gray, Media Guidelines Review (May 12, 2008,


                                       FOR OFFICIAL USE ONLY

CRI-HL109655                                                                                                    25



        •	 When asked if               was upset that she had to attend the April 30, 2008, OCPA
           roundtable, she testified, “Oh yeah, I definitely did not want to do that… just with my
           experience with the media that it was going to be something else that we would have
           to do. When all parties get involved you know there is going to be something else
           that you are going to have to do;” 104

        •	 Subsequent funerals received increased media attention as witnessed on May 1, 2008,
           when ANC buried                                 U.S. Army, Operation Iraqi Freedom.
           The family requested media access and prior to the funeral ceremony, “ANC…
           received approximately forty phone calls inquiring about the next media authorized
           funeral;” 105 and

        •               consequently acknowledged that Ms. Gray was blamed for the increased
             media attention at ANC. 106

                                                CONCLUSION

        We determined that Ms. Gray was a whistleblower. She was not, however, the subject of
reprisal as            lacked knowledge of the qualifying protected disclosures. However, with
respect to the supervision and termination of Ms. Gray, we determined that           and ANC
management failed to exercise sound personnel management.

                                           RECOMMENDATION

        We recommend that the Assistant Secretary of the Army for Civil Works consider
corrective action with respect to ANC officials responsible for handling Ms. Gray’s supervision
and termination and an appropriate remedy for Ms. Gray.




1:50 p.m.), whereby                     states, “This follows our meeting concerning the media guidelines currently
being used at ANC and the suggested changes discussed.”
104
    OIG DoD Interview of             (Apr. 28, 2009) at 64-65.
105
    Executive Summary from Mr. Metzler (May 1, 2008).
106
    OIG DoD Interview of             (Apr. 28, 2009) at 57-58 ([OIG Investigator]: “Do you believe Ms. Gray was
blamed for the increased media attention at ANC?”                 “Yes.”).


                                        FOR OFFICIAL USE ONLY
